Audit of the Accuracy of USAID/South
  Africa’s Recipient Audit Universe


        Report No. 4-674-01-004-P
              July 23, 2001




      PRETORIA, SOUTH AFRICA
U.S. AGENCY FOR
INTERNATIONAL
DEVELOPMENT

RIG/Pretoria


July 23, 2001

MEMORANDUM
FOR:              Mission Director, USAID/South Africa, William Stacy
                  Rhodes

FROM:             Regional Inspector General/Pretoria, Joseph Farinella /s/

SUBJECT:          Audit of the Accuracy of USAID/South Africa’s Recipient
                  Audit Universe, Report Number 4-674-01-004-P

This memorandum is our final report on the subject audit. In finalizing the
report, we considered your comments on the draft report. These comments are
summarized on page 6 of the report and presented in their entirety in
Appendix II.

Based on your comments, we consider that management decisions have been
reached to address both Recommendation Nos. 1 and 2 of the report. In
accordance with USAID guidance, please notify the Bureau for Management,
Office of Management Planning and Innovation (M/MPI) when final action
has been completed on the recommendations.

Thank you for the assistance and courtesies extended to my staff during the
audit.




                                                                              1
             Our audit of the Accuracy of USAID/South Africa’s Recipient Audit Universe
Summary of   focused on determining whether the Mission’s audit universe was complete
Results      and accurate, and if the required audits were done in a timely manner.

             Our results showed that USAID/South Africa’s recipient audit universe was
             complete and accurate. However, 13, or 45 percent, of the 29 required audits
             were not done in a timely manner. Periodic monitoring by the Management
             Control Review Committee could help alleviate this problem.

             This issue is discussed in more detail in the Audit Findings section of this
             report.



Background   Financial audits of contracts and grants are a primary basis for effective
             management and control of USAID’s program expenditures. These audits are
             designed to provide USAID management reasonable assurance that
             transactions are properly recorded and accounted for; laws and regulations,
             and provisions of contract or grant agreements are complied with; and
             USAID-financed funds, property and other assets are safeguarded against
             unauthorized use or disposition.

             In response to Congressional concerns, USAID has taken an active role in
             recent years, using audits as a management tool, to improve financial
             accountability of its programs. In 1991, USAID revised its standard
             provisions for its contracts, cooperative agreements and grants, requiring
             annual audits of non-U.S. organizations receiving USAID funds of $25,000 or
             more a year. The threshold was increased to $100,000 in May 1994. In July
             1998, USAID again revised the standard provisions for its grants, cooperative
             agreements and contracts, but this time requiring annual audits when the
             recipient expends $300,000 or more in USAID awards in its fiscal year.

             Furthermore, in April 1992, USAID issued a General Notice, defining the role
             of USAID missions in obtaining audits of their contracts, grants and
             cooperative agreements with non-U.S. organizations. In May 1996, these
             requirements were incorporated into Chapter 591 of USAID’s Automated
             Directives System (ADS), which, among other things, requires USAID
             missions to (i) establish an audit management program; (ii) maintain an audit
             inventory database; and (iii) have audits done for non-U.S. grants, contracts
             and cooperative agreements that meet the audit threshold.

             These initiatives are far reaching in preventing misuse of USAID development
             funds and facilitating timely corrective actions. Lack of adequate audit
             coverage constitutes an unacceptable risk because, without such a control
             mechanism, financial accountability of program expenditures cannot be
             reasonably assured.

                                                                                            2
                  In March 1995, the Office of Inspector General (OIG) issued Audit Report
                  No. 3-000-95-009 on USAID’s implementation of a 1992 initiative to improve
                  the financial management of its programs. The report concluded that most
                  missions had implemented the general requirements of the financial audit
                  management program and established audit inventory databases. However,
                  complete coverage was impaired as a result of obstacles arising from host
                  government restrictions and local audit firm capabilities.

                  In March 1998, the OIG issued Audit Report No. 9-000-98-002-F on USAID
                  missions’ roles in obtaining audits of their contracts, grants and cooperative
                  agreements. The report concluded that 11 of the 14 USAID missions selected
                  worldwide generally obtained audits of their contracts, grants, and cooperative
                  agreements as required by ADS Chapter 591, but that a significant number of
                  required audits were not completed.

                  In May 1999, OIG management decided to verify the accuracy of USAID
                  missions’ recipient audit universe worldwide over a period of three years
                  because lack of audit coverage was perceived as a high-risk area.
                  Accordingly, RIG/Pretoria included this audit in our fiscal year 2001 audit
                  plan.



Audit Objective
                  RIG/Pretoria performed this audit to answer the following question:

                         Is USAID/South Africa’s audit universe complete and accurate,
                         and are required audits done in a timely manner?

                  The audit scope and methodology are described in Appendix I.




Audit Findings           Is USAID/South Africa’s audit universe complete and accurate,
                         and are required audits done in a timely manner?

                  The audit showed that USAID/South Africa (Mission) maintained a complete
                  and accurate recipient audit universe; however 13, or 45 percent, of the 29
                  required audits were not done in a timely manner. (The Scope and
                  Methodology section describes our sampling methodology.)

                  For those agreements that met the audit threshold during our defined audit
                  period covering three fiscal years (October 1, 1997 through December 31,
                  2000), USAID/South Africa disbursed approximately $173 million to U.S.
                  organizations and $23 million to non-U.S. organizations. The table below
                                                                                                3
provides a breakdown of these disbursements by recipient and type of
agreement:



                                U.S.                   NON-U.S.
                            RECIPIENTS1               RECIPIENTS                  TOTAL


       TYPE OF                CUMULATIVE DISBURSEMENTS & NUMBER OF
     AGREEMENT                       RECIPIENT AGREEMENTS

    Project
    Implementation                    $0       0     $5,215,004        4       $5,215,004        4
    Letter

    Contract               124,810,544        32                0      0     124,810,544        32


    Grant                    13,109,936        6      7,085,193       11       20,195,129       17



    Cooperative              35,247,758      13      11,026,476        8       46,274,234       21
    Agreement

               TOTAL      $173,168,238       51     $23,326,673       23    $196,494,911        74



We ascertained that the Mission’s recipient audit universe was complete, and
included the U.S. and non-U.S. recipients’ agreements that we reviewed. In
addition, we verified that the agreements contained the required audit clauses.

Further, the Mission implemented an audit management program in
accordance with the requirements of ADS Chapter 591, which included:

• establishing a Management Control Review Committee (MCRC) to
     monitor the status of the Mission’s audit program and to assure that its
     audit responsibilities were carried out;

•    designating an audit management officer to coordinate and monitor the
     Mission’s financial audit program, and follow up on the implementation of
     recipient-contracted audit recommendations;

•    stipulating required audit clauses in its grants, cooperative agreements and
     contracts, and budgeting funds for audits; and


1
  USAID/Washington is responsible for the audit coverage of the 51 U.S. recipient agreements that met
the audit threshold.


                                                                                                        4
•   maintaining an automated inventory of contracts, grants, and cooperative
    agreements for use in determining audit requirements.

However, not all the required audits were submitted in a timely manner, as
discussed below.

Emphasis Needed to Ensure
Required Audit Reports Are Received

With regard to timeliness, for the sampled 23 non-U.S. recipients’ agreements
identified in the foregoing table, 29 audits were required during the period
October 1, 1997 through December 31, 2000. However, at the time of our
review, only 16 reports had been submitted to USAID/South Africa. And,
four of the 16 reports were submitted from one to seven months late. The
remaining 13 audit reports, covering approximately $11.4 million in
disbursements, had not been submitted and were one to two years overdue.
This occurred because the MCRC did not regularly monitor the status of
outstanding reports.

To comply with ADS 591.3, the Mission Order established the MCRC
through which Mission management takes the leadership role and assures that
its audit monitoring responsibilities are fully carried out. The Mission Order
requires the audit management officer to advise and report to the MCRC on
the status of the Mission’s audit management and resolution system.

In reviewing ADS 591.3 and the Mission Order, we considered the roles of
the audit management officer, team leaders, and project officers in assuring
smooth implementation of the Mission’s audit management and resolution
program. In our opinion, it is the MCRC’s responsibility, which is chaired by
the Deputy Director and includes the audit management officer and other
responsible officials, to assure that the Mission’s audit monitoring
responsibilities are fully carried out.

Mission officials stated that the MCRC meetings addressed topics pertaining
to its yearly Federal Managers’ Financial Integrity Act submission; it never
discussed whether its audit monitoring responsibilities were being carried out.
The audit management officer stated that the MCRC’s last meeting was in
September 2000, and prior to that in September 1999. But, minutes were not
kept to document what was covered at these meetings.

In our opinion, the Mission Order needs to specify, at a minimum, that
periodic meetings should be held to discuss audit requirements, and address
any problems needing attention to ensure that audit monitoring responsibilities
are being carried out. This should include conducting follow-up on any
outstanding audit reports. In addition, the results of these meetings should be
documented. This would provide the management oversight needed to ensure

                                                                               5
                 timely action and resolution of any outstanding issues or problems. Mission
                 officials agreed and further stated that periodic Project Implementation
                 Review meetings would be the best forum to address the timeliness of
                 submitting audit reports and any problems to ensure that audit monitoring
                 responsibilities are being carried out.

                 Furthermore, we noted that Mission Order 813 needed revisions that could
                 improve controls. For example, Mission Order 813, dated March 23, 1998,
                 requires audits be submitted 13 months after the end of the recipient’s fiscal
                 year. This requirement has been changed to nine months for grants,
                 cooperative agreements and contracts signed beginning July 1998, as per ADS
                 E591.5.4.e. However, the Mission Order does not reflect this change.

                 Therefore, we are making the following recommendations:

                 Recommendation No. 1: We recommend that USAID/South Africa establish
                 a plan of action to review its entire audit universe and obtain all past due audit
                 reports from recipients.

                 Recommendation No. 2: We recommend that USAID/South Africa revise
                 Mission Order 813 to be consistent with ADS Chapter E591 and include, at a
                 minimum, that periodic documented meetings be held to ensure that audit
                 monitoring responsibilities are being carried out, and all required reports are
                 submitted.



                 USAID/South Africa concurred with our audit findings and recommendations
Management       contained in the report, and advised RIG/Pretoria of the actions planned
Comments and     and/or taken to address the recommendations.
Our Evaluation
                 Recommendation No. 1 states that USAID/South Africa establish a plan of
                 action to review its entire audit universe and obtain all past due audit reports.
                 Mission management implemented a plan immediately, which is scheduled for
                 completion in early October 2001. Therefore, a management decision has
                 been reached on Recommendation No. 1.

                 Recommendation No. 2 states that USAID/South Africa revise its Mission
                 Order to ensure that audit monitoring responsibilities are carried out. The
                 Mission has revised Mission Order 813, which is in the clearance process, to
                 address the recommendation. Therefore, a management decision has been
                 reached on Recommendation No. 2.

                 The complete text of the Mission’s comments is included in Appendix II.




                                                                                                   6
                                                                               Appendix I


Scope and     Scope
Methodology
              The audit was performed in accordance with generally accepted government
              auditing standards, and ascertained whether (1) USAID/South Africa’s audit
              universe was complete and accurate, and (2) required audits were done in a
              timely manner.

              The OIG conducted a “Worldwide Audit of Selected Missions’ Role in
              Obtaining Audits of Their Contracts, Grants and Cooperative Agreements”
              (Report No. 9-000-98-002-F, March 20, 1998). That report considered
              recipient financial audits which had been completed as of October 31, 1996.
              For the purposes of this audit, we obtained information on audits due and/or
              completed from October 1, 1997 through December 31, 2000, covering three
              fiscal years – 1998, 1999, and 2000. (USAID/South Africa’s recipient audit
              inventory file was maintained as of December 31, 2000; therefore, our scope
              was extended from September 30, 2000 to December 31, 2000.) Further,
              upon the advice of the RIG/Pretoria management, we limited our review to
              those agreements that were statistically selected from the Mission’s audit
              universe. This decision was made due to the magnitude of the Mission’s audit
              universe as well as constraints in time and resources.

              Fieldwork was performed at USAID/South Africa in Pretoria, South Africa
              from February 7 – May 14, 2001, and covered approximately $23 million of
              USAID disbursements for non-U.S. recipients’ agreements subject to audit.
              The audit scope included:

              (1) reviewing the Mission’s audit management program and related
                  documents,

              (2) interviewing cognizant Mission officials, and

              (3) reviewing information from the Mission’s automated database universe on
                  contracts, grants, and cooperative agreements, and identifying those that
                  require audits.

              In addition, we obtained information on (1) total disbursement for all grants,
              contracts, project implementation letters and cooperative agreements (U.S.
              and non-U.S.) for USAID for the three-year period ended December 31, 2000,
              and (2) the number and amount of grants, project implementation letters,
              contracts, and cooperative agreements meeting the audit threshold of
              $100,000 or more a year in Federal awards received prior to July 1998 and
              $300,000 or more a year in disbursements on or after July 1998 to form a
              complete picture of the Mission’s portfolio.

                                                                                           7
The relevant audit criteria included Chapter 591 of USAID’s Automated
Directives System (ADS), USAID/South Africa’s Mission Order 813, Audit
Management and Resolution Program, dated March 1998, and the OIG’s
“Guidelines for Financial Audits Contracted by Foreign Recipients”
(Guidelines), revised in July 1998.


Methodology

The methodology included (1) reviewing the Mission’s audit inventory
database system to determine if it contains the information needed to monitor
and track required audits, (2) examining contracts, grants, project
implementation letters, and cooperative agreements, and amounts committed
and disbursed, (3) validating the disbursements as shown in the Mission’s
audit inventory database against the disbursements recorded in the MACS,
and, (4) conducting interviews with cognizant officials to determine whether
the Mission met its responsibilities established by ADS Chapter 591 and the
Guidelines.

To answer our audit objective, we obtained the universe of USAID/South
Africa’s grants, contracts, project implementation letters and cooperative
agreements, and determined the number and dollar amounts of all instruments
for non-U.S. recipients subject to audit coverage as of December 31, 2000.
As of December 31, 2000, USAID/South Africa’s recipient audit universe
contained a total of 277 non-U.S. agreements. To ensure the accuracy of
USAID/South Africa’s audit recipient inventory, we classified the agreements
into three strata.

We randomly selected samples based on a stratified statistical sampling
methodology. We utilized the services of the statistician located at OIG
Headquarters Liaison and Coordination’s Office. The sample was selected at
a 95 percent confidence level and an error rate of 5 percent to give us a good
and reliable sample. We considered error rates in excess of 5 percent
significant. We sampled 121 of the 277 non-U.S. recipients’ agreements for
accuracy. The table below provides the selection criteria, total number of
agreements and the number sampled.




                                                                                 8
                     Selection Criteria of
 Stratum        Non-U.S. Recipient Agreements                Total         Sampled
           Did not meet either the defined audit period or
    1      set disbursement threshold                                69         30
           Met the defined audit period but not the set
    2      disbursement threshold                                    131        57
           Met both the defined audit period and the set
    3      disbursement threshold                                     77        34
               Total                                                 277       121

Of the 121 sampled agreements, 87 agreements tested under the first two
selection criteria were generally accurate and complete. However, these
agreements were not subject to audit coverage. Thirty of the 87 agreements
did not meet either the defined audit period or the set disbursement threshold.
The remaining 57 agreements met the defined audit period but not the
disbursement threshold.

For the 34 remaining agreements tested under the third selection criteria, we
found that 11 were not subject to audit because:

        • 8 did not meet the set disbursement threshold;
        • 2 were U.S. recipients that were erroneously classified as non-U.S.
          recipients by the financial analyst; and
        • 1 was a fixed amount reimbursement agreement.
In regard to the agreements for the 23 non-U.S. recipients that were subject to
audit coverage, we then determined whether: (1) required audits were
completed in a timely manner; and (2) audit reports were prepared in
accordance with USAID’s guidelines and sent to RIG/Pretoria for desk
review.




                                                                                     9
                                                                                      Appendix II



Management
Comments



             U.S. AGENCY FOR
             INTERNATIONAL
             DEVELOPMENT


             Memorandum
             DATE:             July 11, 2001

             TO:               Nancy Lawton, A/RIG

             FROM:             Eilene Oldwine, A/DIR /s/

             SUBJECT:          Audit of the Accuracy of USAID/South Africa’s Recipient Audit Universe

             We concur with the two audit recommendations discussed at the de-briefing
             held June 8, 2001 in the draft audit report.

             The following actions have been planned or addressed:

             Recommendation No 1: We recommend that USAID/South Africa establish a
             plan of action to review its entire audit universe and obtain all past due audit
             reports from recipients.

             Action:
              a.     A plan of action to review the audit universe has been discussed with
                     the Financial Analysts and is being implemented immediately and is
                     scheduled to be completed within three months (October 10, 2001).
                     This includes MACS Intelligence Query (IQ) reports being developed
                     and run and matched against the current database to verify agreements
                     and end dates on the tracking report. Additionally copies of the
                     tracking report will be sent to Strategic Objective Team Leaders and
                     the Director’s Office quarterly with a memo requesting them to action
                     as appropriate and to notify the financial analyst if there are any
                     missing agreement or inaccurate data on the report.

             Recommendation No 2: We recommend that USAID/South Africa revise
             Mission Order 813 to specify at a minimum, that periodic meetings be held
             and documented to ensure that audit monitoring responsibilities are being
             carried out, including submission of all required reports.

                                                                                                    10
                                                               Appendix II




Audit of the Accuracy of USAID/
South Africa’s Recipient Audit Universe     -2-                July 11, 2001




Action:
a.      Mission order 813 has been revised as recommended and is in the
        clearance process. The Project Implementation Reviews (PIR) take
        place twice a year and the status of recipient contracted audits is
        covered as part of the review. The entire Management Control Review
        Committee (MCRC) attends these meetings and it is more efficient to
        cover this along with other implementation issues rather than having a
        separate meeting. The revision to the mission order will include the
        requirement for submission of the audit within 9 months after the end
        of the recipients fiscal year.
b.      Provisions have been made to include clearance of the Financial
        Analysts on all MAARDs. If there are outstanding audits then
        incremental funding will not be added, estimated completion dates will
        not be extended and new agreements will not be issued to an
        organization.
c.      A clearance procedure for processing of program vouchers now
        includes checking a list provided to the Voucher Examiners on a
        weekly basis by the Financial Analyst of over due audits.

Management decisions have been reached on the two recommendations and
the action necessary to address the are in process.

Cleared:
Eric Schaeffer, D/CONT /s/

Drafter:
Barbara Krell, CONT /s/




                                                                           11
